OFFICE OF THE ATTORNEY GENERAL
CRIMINAL APPEALS

Concourse Center 4

3507 E. Frontage Road. Suite 200

Tampa. FL 33607-7013

ASHLEY MOODY Phone (813) 287-7900

ATTORNEY GENERAL Fax (813) 281-5500
STATE OF FLORIDA HEEL AE yin st

 

 

March 10, 2021

Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

RE: CASE NAME: Venecia Depaula v. State of Florida
Case No. 20-7173

WAIVER

Dear Mr. Harris:

Respondent, State of Florida, does not intend to file a response to the petition in the
above captioned case, unless requested so to do by the Court. This is not a case in which
the death penalty has been imposed.

Please enter my appearance as Counsel of Record for all respondents in this case.
Sincerely,

ASHLEY MOODY
ATTORNEY GENERAL

C. Todd Chapman.
Assistant Attorney General

Tampa Criminal Appeals
Clifford.Chapman@mvyfloridalegal.com

/gc

ce: — Richard H. Morrison, #499056-D2112-L, Dade City Correctional Institution,
1900 SW 377 Street, Florida City, FL 330345
